Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL



THE DEPARTMENT OF HEALTH AND
     HUMAN SERVICES HAS
   IMPLEMENTED PREDICTIVE
 ANALYTICS TECHNOLOGIES BUT
 CAN IMPROVE ITS REPORTING ON
     RELATED SAVINGS AND
    RETURN ON INVESTMENT
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                           Daniel R. Levinson
                                            Inspector General

                                             September 2012
                                              A-17-12-53000
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Small Business Jobs Act of 2010 (the Act) requires the Department of Health and Human
Services (the Department) to use predictive modeling and other analytics technologies
(predictive analytics technologies) to (1) identify improper Medicare fee-for-service claims that
providers submit for reimbursement and (2) prevent the payment of such claims. To implement
predictive analytics technologies, the Centers for Medicare & Medicaid Services (CMS), which
administers Medicare, developed the Fraud Prevention System (FPS). In the Department’s
Report to Congress: Fraud Prevention System First Implementation Year (the first
implementation report), mandated by the Act, CMS reported that it uses the FPS to review in real
time all Medicare fee-for-service claims before payment. The FPS reviews claims processed
nationwide.

Not later than 3 months after the completion of the first implementation year (July 1, 2011,
through June 30, 2012), the Office of Inspector General (OIG) of the Department must certify
the actual and projected improper payments recovered and avoided and the return on investment
related to the Department’s use of predictive analytics technologies in the Medicare fee-for-
service program. OIG must do this for the first 3 implementation years. OIG must also
recommend whether the Department should continue, expand, or modify its use of predictive
analytics technologies.

OBJECTIVES

Our objectives were to determine whether the Department: (1) complied with the requirements
of the Act for reporting actual and projected improper payments recovered and avoided in the
Medicare fee-for-service program and its return on investment related to its use of predictive
analytics technologies and (2) should continue, expand, or modify its use of the FPS to increase
savings or mitigate any adverse impact on Medicare beneficiaries or providers.

SUMMARY OF FINDINGS

In the first year of its implementation of the Act’s requirements, the Department has
implemented predictive analytics technologies, but it did not fully comply with the requirements
for reporting actual and projected improper payments recovered and avoided in the Medicare
fee-for-service program and its return on investment related to its use of predictive analytics
technologies. Reporting such amounts in accordance with the requirements is inherently
challenging because, primarily, it is a new venture and because of the decentralized nature of the
FPS business processes. The Department did not report some of the amounts required and had
inconsistencies in its data; in addition, its methodology for calculating other reported amounts
included some invalid assumptions that may have affected the accuracy of those amounts. In
these cases, we could not determine the accuracy of the Department’s information, which
impeded our ability to quantify the amount of the inaccuracies noted in this report.




                                                 i
Although we could not determine whether the savings-related information that the Department
reported was accurate, using the FPS will help the Department combat fraud, waste, and abuse in
the fee-for-service program. The Department has integrated the FPS into its overall fraud
prevention strategy, and the FPS now covers all 50 States, the District of Columbia, and the
territories. In its first implementation report, the Department has described its plans to expand
and enhance the FPS. We expect to analyze any modifications or refinements in future
implementation years.

RECOMMENDATIONS

Developing initial year measurements for actual and projected savings and cost avoidance that
have accrued from the use of predictive analytics is inherently difficult, and we recognize that
refining such measures will be challenging. To help the Department address this challenge and
improve its reporting on these measures, we recommend that the Department:

   •   require contractors to track recoveries that result from FPS leads;

   •   coordinate with law enforcement to enhance reporting of investigative and prosecutorial
       outcomes in cases predicated on referrals from the FPS;

   •   revise the methodology used to calculate projected savings with respect to improper
       payments avoided to recognize that

           o some of the services associated with prior-year claims submitted by a revoked
             provider may be legitimate and

           o claims denied on the basis of edits may ultimately be paid;

   •   revise the methodology used to calculate costs avoided from edits and payment
       suspensions to include verifying that the information in the Department’s records is
       consistent with that maintained by the Zone Program Integrity Contractors and the
       Program Safeguard Contractors; and

   •   include all costs associated with the FPS, including reporting costs, indirect costs, and
       projected costs, in its return on investment calculation.

DEPARTMENT COMMENTS

In written comments on our draft report, the Department concurred with our recommendations
and noted it is committed to working with OIG to ensure that the recommendations are
incorporated into future FPS reports. In response to the Department’s technical comments, we
made changes to the report as appropriate.

The Department’s comments are included as the Appendix of this report.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Use of Predictive Analytics Technologies in the Medicare Program ................. 1
              The Centers for Medicare & Medicaid Services Fraud Prevention System ......... 1
              Office of Inspector General Certification of Actual and Projected Savings
               to the Medicare Fee-for-Service Program.......................................................... 1

          OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................... 2
               Objectives ............................................................................................................. 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          THE DEPARTMENT DID NOT FULLY COMPLY WITH REPORTING
           REQUIREMENTS ......................................................................................................... 4
               Federal Requirements ........................................................................................... 4
               Improper Payments Recovered: Actual Savings.................................................. 4
               Improper Payments Recovered: Projected Savings ............................................. 5
               Improper Payments Avoided: Actual Savings ..................................................... 5
               Improper Payments Avoided: Projected Savings ................................................ 7
               Return on Investment for the Use of Predictive Analytics Technologies:
                 Actual and Projected Savings ............................................................................ 7
               Return on Investment for the Use of Predictive Analytics Technologies
                 in Comparison to Other Strategies or Technologies: Actual and
                 Projected Savings ............................................................................................... 8

          THE DEPARTMENT’S USE OF THE FRAUD PREVENTION SYSTEM .................. 8

          RECOMMENDATIONS .................................................................................................. 9

          DEPARTMENT COMMENTS ........................................................................................ 9

APPENDIX

          DEPARTMENT COMMENTS




                                                                     iii
                                                INTRODUCTION

BACKGROUND

Use of Predictive Analytics Technologies in the Medicare Program

Section 4241 of the Small Business Jobs Act of 2010 (the Act) (P.L. No. 111-240) requires the
Department of Health and Human Services (the Department) to use predictive modeling and
other analytics technologies (predictive analytics technologies) to (1) identify improper Medicare
fee-for-service claims that providers submit for reimbursement and (2) prevent the payment of
such claims. The Act required the Department to issue, no later than January 1, 2011, requests
for proposals on how to implement predictive analytics technologies. The Act required the
Department to implement predictive analytics technologies by July 1, 2011, in the 10 States that
the Secretary of the Department (Secretary) identified as having the highest risk of Medicare fee-
for-service fraud, waste, and abuse. Congress appropriated $100 million to the Department to
carry out the requirements of the Act.

The Centers for Medicare & Medicaid Services Fraud Prevention System

To implement predictive analytics technologies, the Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, developed the Fraud Prevention System (FPS). In its
Report to Congress: Fraud Prevention System First Implementation Year 1 (the first
implementation report), CMS reported that it uses the FPS to review in real time all Medicare
fee-for-service claims before payment. The FPS reviews claims processed in all 50 States, the
District of Columbia, and the territories. The FPS detects both patterns and aberrancies 2
(referred to as “leads” in this report) that CMS provides to Zone Program Integrity Contractors
(ZPIC) and Program Safeguard Contractors (PSC) 3 for investigation. These investigations can
result in administrative actions, including payment suspensions, provider/supplier revocations,
and referrals to law enforcement. Investigations can also result in the introduction of
programming that screens claims automatically for specific problems (payment edits).

Office of Inspector General Certification of Actual and Projected Savings to the Medicare
Fee-for-Service Program

The Act requires that not later than 3 months after the completion of the first implementation
year, 4 the Secretary submit to Congress and make available to the public a report that includes
information about the Department’s use of predictive analytics technologies. In addition, the Act
requires the Office of Inspector General (OIG) of the Department to certify the actual and
projected improper payments recovered and avoided and the return on investment related to the

1
    CMS, Report to Congress: Fraud Prevention System First Implementation Year, September 2012.
2
    Aberrancies are claims that deviate from the norm.
3
    Both ZPICs and PSCs are responsible for performing program integrity activities for CMS.
4
    The first implementation year was July 1, 2011, through June 30, 2012.


                                                           1
Department’s use of predictive analytics technologies in the Medicare fee-for-service program
for the first 3 implementation years (section 4241(e) of the Act). The Act also requires that OIG
recommend whether the Department should continue, expand, or modify its use of predictive
analytics technologies.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the Department: (1) complied with the requirements
of the Act for reporting actual and projected improper payments recovered and avoided in the
Medicare fee-for-service program and its return on investment related to its use of predictive
analytics technologies and (2) should continue, expand, or modify its use of the FPS to increase
savings or mitigate any adverse impact on Medicare beneficiaries or providers.

Scope

We reviewed the first implementation report, as of September 27, 2012. Our report is based on
the data and information provided to us as of that date and does not reflect any subsequent
revisions to the Department’s report, if any such changes have been made. Specifically, we
reviewed section 3, “FPS Outcomes.” Our review was limited to this section because it
contained the information that we were required to certify. We did not audit information
reported in other sections and therefore do not provide any assurance about the information in
those sections. The first implementation report covered CMS’s use of predictive analytics
technologies from July 1, 2011, through June 30, 2012.

As stated earlier, the Act requires us to certify the amounts that the Department reported as
actual and projected savings to the Medicare fee-for-service program and the Department’s
return on investment. However, the term “certification” is not defined in the Act or in generally
accepted government auditing standards. To satisfy the Act’s certification requirement, we have
conducted a performance audit to evaluate the accuracy of the savings and return on investment
figures that the Department reported. We have defined the term “certification” as a
determination that the actual and projected savings and return on investment figures reported by
the Department are accurate.

Because the OIG certification date and the Department reporting date are the same (90 days after
the end of the first implementation year), we limited our procedures to those necessary to
evaluate the accuracy of the information reported by the Department. We did not perform
procedures to quantify errors in that information.

The first implementation report included the Department’s determination of actual and projected
savings and return on investment. The Department’s underlying assumptions for determining
projected savings were based on current events and circumstances. Because future events and
circumstances frequently do not occur as expected, projected and actual results often differ.
Those differences may be material. We have no responsibility to update this report for events
and circumstances that occur after the date of this report. Our audits of subsequent

                                                2
implementation years will provide a perspective on these projections.

We performed our fieldwork from March through August 2012.

Methodology

To accomplish our objectives, we:

   •   reviewed the Act to gain an understanding of the Department’s and OIG’s
       responsibilities,

   •   met with Department officials to learn about the Department’s implementation of the
       FPS,

   •   evaluated the first implementation report and the Department’s supporting documentation
       to determine the accuracy of the estimated actual and projected savings and return on
       investment figures reported,

   •   analyzed the Department’s methodologies for calculating actual and projected savings to
       determine whether the underlying assumptions were valid,

   •   reviewed the Department’s methodology for calculating return on investment to
       determine whether it would include all costs and savings associated with the FPS and
       whether the underlying assumptions were valid,

   •   visited a ZPIC and a PSC to review case files and to compare their data to the
       Department’s data,

   •   reviewed the Department’s actual and planned activities to expand and modify or refine
       the FPS, and

   •   discussed the results of our audit with Department officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

In the first year of its implementation of the Act’s requirements, the Department has
implemented predictive analytics technologies, but it did not fully comply with the requirements
for reporting actual and projected improper payments recovered and avoided in the Medicare
fee-for-service program and its return on investment related to its use of predictive analytics
technologies. Reporting such amounts in accordance with the requirements is inherently

                                                3
challenging because, primarily, it is a new venture and because of the decentralized nature of the
FPS business processes. The Department did not report some of the amounts required and had
inconsistencies in its data; in addition, its methodology for calculating other reported amounts
included invalid assumptions that may have affected the accuracy of those amounts. In these
cases, we could not determine the accuracy of the Department’s information, which impeded our
ability to quantify the amount of the inaccuracies noted in this report.

Although we could not determine whether the savings-related information that the Department
reported was accurate, using the FPS will help the Department combat fraud, waste, and abuse in
the fee-for-service program. The Department has integrated the FPS into its overall fraud
prevention strategy, and the FPS now covers all 50 States, the District of Columbia, and the
territories. In its first implementation report, the Department has described its plans to expand
and enhance the FPS. We expect to analyze any modifications or refinements in future
implementation years.

THE DEPARTMENT DID NOT FULLY COMPLY WITH REPORTING
REQUIREMENTS

Federal Requirements

Subsections (i) and (ii) of sections 4241(e)(1)(B) of the Act require the Department to report the
following information:

   •   actual savings with respect to improper payments recovered,

   •   projected savings with respect to improper payments recovered,

   •   actual savings with respect to improper payments avoided,

   •   projected savings with respect to improper payments avoided,

   •   actual and projected savings relative to the return on investment for the use of predictive
       analytics technologies, and

   •   actual and projected savings relative to the return on investment for the use of predictive
       analytics technologies in comparison to other strategies or technologies.

Improper Payments Recovered: Actual Savings

In its first implementation report, the Department could not present actual savings with respect to
improper payments recovered. The Department acknowledged in the first implementation report
that it did not report this information because it does not require contractors to track recoveries
by source (i.e., the entity that identified the improper payment). Departmental officials advised
us that this problem, related to the attribution of the sources, affects other CMS recoveries and
that they are considering corrective actions that may address this issue.


                                                 4
Improper Payments Recovered: Projected Savings

In its first implementation report, the Department reported estimated projected savings of
$72.6 million with respect to improper payments recovered. This amount consisted of the
following:

      •    $4.4 million in overpayments that the ZPICs and PSCs had referred to other contractors
           for collection after they had investigated leads and

      •    $68.2 million related to the ZPICs’ and PSCs’ referrals to law enforcement.

The Department cannot track the collection of overpayments resulting from leads because it does
not require contractors to track recoveries by source. Without this information, the Department
cannot develop an accurate estimate of the funds referred for collection that will be collected.
Therefore, we could not determine whether the $4.4 million that ZPICs and PSCs had referred to
other contractors was an accurate projection of savings.

We also could not determine whether the $68.2 million in projected savings from law
enforcement referrals was an accurate projection of savings. This amount represents the total
value of claims identified during the investigation of leads. The Department’s methodology
assumes that 100 percent of the amount referred to law enforcement will be recovered. The
Department did not provide any support for this assumption, such as historical data. The
methodology does not reasonably account for known variables that may impede the 100-percent
recovery of the amount referred. For example, law enforcement has discretion not to pursue a
case based on a referral or a referral might result in a case that is settled before it goes to trial.
Both examples would likely decrease the total percentage of actual recoveries based on law
enforcement referrals. Furthermore, amounts collected resulting from law enforcement referrals
may be higher than 100 percent of improper payments recovered in some cases because
supplemental amounts, such as treble damages and additional fines or penalties that can be levied
by the judicial system, may be returned to the Medicare trust fund. These amounts would not be
accounted for in the presentation of projected savings from improper payments recovered as they
are not improper payments identified by the FPS. Department officials advised us that they will
have to work with law enforcement officials to develop a more accurate estimate of recoveries
from law enforcement referrals.

Improper Payments Avoided: Actual Savings

In its first implementation report, the Department reported $31.8 million in estimated actual
savings with respect to improper payments avoided. This amount consisted of the following:

      •    Cost avoidance from revoking provider billing privileges: $7.3 million,

      •    Cost avoidance from changes in provider behaviors: 5 $6.7 million,

5
    This refers to a national prepayment edit that CMS implemented in 2012.


                                                          5
    •    Amount denied by prepayment edits: 6 $11.5 million,

    •    Amount denied by autodenial edits: 7 $4.7 million, and

    •    Payment suspensions: $1.6 million.

Developing a methodology and accumulating data for these reported amounts for the initial
implementation year was an inherently challenging process. Some of these amounts may not
represent actual savings with respect to improper payments avoided in the first implementation
year.

Cost Avoidance From Revoking Provider Billing Privileges

We could not determine whether the $7.3 million reported as actual costs avoided by revoking
provider billing privileges was accurate because the Department’s methodology assumes that not
one of the claims submitted by the provider was a legitimate claim that would have been paid if
the beneficiary had received the services from another provider. The Department did not provide
support for this assumption, and we found evidence that it may not be valid. We examined the
prior-year claims submitted by one provider whose billing privileges had been revoked and
found that some of the beneficiaries treated by that provider received the same type of services
from other providers following the revocation. The Department’s methodology assumes that
100 percent of the prior-year claims submitted by a revoked provider were not proper.

Cost Avoidance From Changes in Provider Behaviors

We could not determine whether the $6.7 million reported as actual costs avoided from changes
in provider behaviors was accurate. The Department’s methodology is based on an edit added to
the MACs’ Medicare fee-for-service claims processing system. We examined the payments to
one provider affected by this edit after it was implemented and found that the provider received
payment for some services that this edit was designed to deny. Our concern is that the
Department’s methodology assumes that 100 percent of the claims denied by the edit were
improper. If any of these payments were proper, the $6.7 million reported as actual costs
avoided by this edit would be overstated.

Amounts Denied by Edits and Payment Suspensions

We could not determine whether the $17.8 million reported as actual costs avoided through edits
and payment suspensions was accurate. The supporting information maintained by the
Department was not consistent with the supporting information provided and certified by the

6
  Prepayment edits automatically flag all or part of a claim for further CMS review or automatically hold payment
for all or part of a claim (the first implementation report, section 3.1). Prepayment edits, unless otherwise specified,
are applied by individual Medicare administrative contractors (MAC) (i.e., a local edit). MACs are companies that
process and pay Medicare fee-for-service claims.
7
 Autodenial edits automatically deny all or part of claims; no review is necessary (the first implementation report,
section 3.1).

                                                           6
ZPICs and PSCs. Specifically, the information provided by the ZPIC and PSC we visited
included the names of sanctioned providers that were not included in the information maintained
by the Department. The Department’s methodology for determining costs avoided from edits
and payment suspensions did not include obtaining a list of sanctioned providers and associated
costs avoided from the ZPICs and PSCs and verifying that this information was consistent with
the Department’s information. Instead, the Department relied on ZPIC and PSC certification of
the data that ZPICs and PSCs provided. The $17.8 million that the Department reported reflects
adjustments it made in response to those errors that we identified during our review.

Improper Payments Avoided: Projected Savings

In its first implementation report, the Department reported $11 million in projected savings with
respect to improper payments avoided. This amount consisted of the following:

    •   cost avoidance from revoking provider billing privileges: $6.6 million and

    •   cost avoidance from changes in provider behaviors: $4.4 million.

These amounts represent the portion of estimated avoided costs that are expected to occur in the
second implementation year. 8 We could not determine whether the $11 million was accurate
because, similar to the issues noted with the Department’s reporting of actual costs avoided by
revoking provider billing privileges and changing provider behavior, the Department’s
methodology here also assumes that 100 percent of the claims were improper. Performing an
indepth analysis of historical data used in developing the assumptions that affect billing privilege
revocation and the propriety of claims denied by certain edits could provide useful information to
be able to project savings with more precision.

Return on Investment for the Use of Predictive Analytics Technologies: Actual and
Projected Savings

In the first implementation report, the Department reported an estimated return on investment of
$3.30 for every dollar spent on the FPS in its first implementation year. This figure was not
accurate because it was calculated by dividing the total of both actual and projected savings that
were reported by a summary of the costs used to implement the FPS during its first year, and, as
previously discussed, there were inconsistencies and unverified assumptions in the methodology
used to accumulate the actual and projected savings. In addition, the Department did not include
all costs associated with the FPS in its calculation. Specifically, the Department did not include
the cost of the contract for preparing the first implementation report and the first-year indirect
costs (e.g., office space, furnishings, and equipment) that should have been allocated among the
various fraud-fighting programs, including the FPS. Finally, because the Department used both
actual and projected savings to calculate return on investment, it should also have reported actual


8
 The estimates from which these projections are derived were based on actions taken in the first implementation
year. Thus, the amounts projected for the second implementation year do not include any estimates of improper
payments avoided that are related to revocations or edits made in the second implementation year.


                                                        7
and projected costs to ensure that all costs were properly included in the return on investment
calculation.

Return on Investment for the Use of Predictive Analytics Technologies in Comparison to
Other Strategies or Technologies: Actual and Projected Savings

In its first implementation report, the Department compared the return on investment from the
FPS to the first-year return on investment for the Health Care Fraud and Abuse Control program 9
and concluded that the FPS outperformed the Health Care Fraud and Abuse Control program.
We could not determine whether this comparison was accurate because of our concerns, noted in
the previous section, with the Department’s calculation of return on investment for the FPS.

THE DEPARTMENT’S USE OF THE FRAUD PREVENTION SYSTEM

Section 4241(e)(1)(B)(iii) of the Act requires OIG to recommend whether the Department should
continue to use predictive analytics technologies, whether the use of such technologies should be
expanded, 10 and whether any modifications or refinements should be made to increase the amount of
actual or projected savings or mitigate any adverse impact on Medicare beneficiaries or providers.
OIG recognizes that the use of new technologies has tremendous potential for enhancing fraud-
fighting efforts and has adopted certain information technology and analytics to better identify
potentially fraudulent activities and target our oversight efforts.

Although we noted some inaccuracies in the savings-related information that the Department
reported, continuing to use the FPS will strengthen the Department’s efforts to combat fraud, waste,
and abuse in the Medicare fee-for-service program. In the first implementation year, the Department
has integrated the FPS into its overall fraud-prevention strategy. The FPS has provided ZPICs and
PSCs with valuable data that they have used in ongoing investigations and in initiating investigations
that have identified potential recoveries and costs that could be avoided.

CMS has expanded the use of predictive analytics technologies to all 50 States, the District of
Columbia, and the territories. CMS was required only to implement predictive analytics
technologies in 10 States identified by the Secretary as having the highest risk of waste, fraud, or
abuse in the Medicare fee-for-service program. Instead, CMS implemented the FPS nationwide.

In its first implementation report, the Department describes a number of modifications or
refinements it has planned to enhance the FPS, such as enhancing FPS integration with the Medicare
Claims Processing System and expanding and enhancing FPS models. The Department did not
indicate whether these modifications or refinements were designed to increase the amount of actual
projected savings or to mitigate any adverse impact on Medicare beneficiaries or providers. We
have not performed a detailed analysis of the Department’s plans because the data from the first


9
 The Health Care Fraud and Abuse Control program was implemented in 1997 by the Department and the
US Department of Justice.
10
  “Expansion” under the Act means the incremental implementation of predictive analytics beyond the initial 10
States.

                                                        8
implementation year were not sufficient. However, we expect to analyze any modifications or
refinements made by CMS in future implementation years.

RECOMMENDATIONS

Developing initial-year measurements for actual and projected savings and cost avoidance that
have accrued from the use of predictive analytics is inherently difficult, and we recognize that
refining such measures will be challenging. To help the Department address this challenge and
improve its reporting on these measures, we recommend that the Department:

   •   require contractors to track recoveries that result from FPS leads;

   •   coordinate with law enforcement to enhance reporting of investigative and prosecutorial
       outcomes in cases predicated on referrals from the FPS;

   •   revise the methodology used to calculate projected savings with respect to improper
       payments avoided to recognize that

           o some of the services associated with prior-year claims submitted by a revoked
             provider may be legitimate and

           o claims denied based on edits may ultimately be paid;

   •   revise the methodology used to calculate costs avoided from edits and payment
       suspensions to include verifying that the information in the Department’s records is
       consistent with that maintained by the ZPICs and PSCs; and

   •   include all costs associated with the FPS, including reporting costs, indirect costs, and
       projected costs, in its return on investment calculation.

DEPARTMENT COMMENTS

In written comments on our draft report, the Department concurred with our recommendations
and noted it is committed to working with OIG to ensure that the recommendations are
incorporated into future FPS reports. In response to the Department’s technical comments, we
made changes to the report as appropriate.


The Department’s comments are included as the Appendix of this report.




                                                 9
APPENDIX
                                                                                                        Page 1 of3


                APPENDIX: DEPARTMENT COMMENTS 




  DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                          Administrator
                                                                          Washington, DC 20201




DATE:         SEP 2 1 2012
TO:           Daniel R. Levinson
              Inspector General

FROM:         Marilyn Tavenner 1....(\ I\n \..A'Jb1<'~;-ttlA'J...JViv't\.-(""­
              Acting Administrator I \J ~

SUBJECT:      Office ofInspector General (OIG) Draft Report: "The Department of Health and
              Human Services Has Implemented Predictive Analytics Technologies But Can
              Improve Its Reporting on Related Savings and Return On Investment"
              (A-09-11-02016)

Thank you for the opportunity to review and provide comments on the Office ofinspector
General's (OIG) report entitled, "The Department of Health and Human Services Has
Implemented Predictive Analytics Technologies But Can Improve Its Reporting on Related
Savings and Return On Investment." As required by the Small Business Jobs Act of2010 (Act),
the Centers for Medicare & Medicaid Services (eMS) developed the Fraud Prevention System
(FPS) in order to implement predictive analytics technologies to identify and prevent the
payment of improper claims in the Medicare fee-for-service program.

The eMS appreciates OIG's finding that "continuing to use the FPS will strengthen the
Department's efforts to combat fraud, waste, and abuse in the Medicare fee-for-service program"
and agrees with its recommendation that the FPS continue. In the first year of the FPS, eMS
implemented predictive analytic technology on a nationwide basis in less time than statutorily­
required without adversely impacting providers, suppliers, or beneficiaries. eMS and its
contractors have developed complex analytic models that the OIG points out have led to
"valuable data that [eMS fraud contractorsJhave used in ongoing investigations and to initiate
investigations that have identified potential recoveries and costs that could be avoided."

In its first year, the FPS generated leads for 536 new fraud investigations, provided new
information for 511 pre-existing investigations, and triggered thousands of provider and
beneficiary interviews to verify legitimate items and services were provided to beneficiaries.
Such data have also helped the Office ofinspector General, Omce ofinvestigations (OIG/OI)
and the Federal Bureau ofinvestigations (FBI) in developing stronger cases against fraudulent
providers and suppliers.

However, we recognize that there remain challenges in evaluating the FPS and over the next year
we will continue to enhance our ability to estimate savings with respect to both improper
payments recovered and improper payments avoided. Because of the inherent difficulties with
estimating savings from fraud prevention, we fully appreciate that this creates a significant



  OIG Note: The report number has since been updated.
                                                                                                    Page 2 of 3




Page 2 - Daniel R. Levinson


c.haJlenge for an outside entity such as OIG 10 validate and certify actual and projected savings
from the FPS as the statute requires. We note ilia! this is the first time predictive analytic
technology ha5 been used by the government on such a large scale fOf the pwpose of identifying
health care fllud , and it is the first time both eMS and 010 have been required by law to
calculate actual and projected savings for a specific ftaud prevention tool such as the FPS.

The CMS believes that we havc dcveloped the appropriate measures needed to estimate savings
with respect to both improper payments recovered and improper payment5 avoided. We
appreciate OIG's recomme nd ations to revise the met hodology used to calculate ac tua l and
projected savings and are committed to working wi th OIG to ensure that its reco mmendations are
appro priately incorporated into o ur next FPS rcpon .

Our response to each of DIG's recommendations fo llows.

OIG RfS'9mmf nd. tiOD 1

Require contractors to track recoveries that result from FPS leads.

e M S SnDOp"

1be CMS eoncws \\ith OIG's recommendation. While the .gency tracks the amount of
overpayments collected overall, then: are inherent systemic challenges associated with the
lrackini of overpayment recovery by the source responsible for identifying the overpayment.
e·a .• FPS lead. CMS is evaluating corrective actions to track overpayment recoveries made by
the MedK:are Administrative Contractors (MACs) by the soun::e oftbc overpayment
determination. Once this COITeCtive action is in place, overpayment recoveries can be accur&1ely
measured based on each identifying source, including FPS leads.




Work with law enforcement to obtain the data necessary to estimate the proporti on ofclaims
associated with rererrals to law enforcement thlll. will be recovered.

e MS Ra pon"

Thc eMS concws with O IG's recommendati on. C MS is comm itted to working wit h law
enforcemen t officials in an efTon to develop acc urate estimates of recoveries associated wi th
refcrrals to law enforcement.

OIG Recomrnfnd.tiOD J

Revise the methodology used to calculate projected savings wi th rcspcclto improper payments
avoided 10 recognize that: (I) some ofthe services associated with prior-year elaims submitted
by a revoked provider may be legitimate; and (2) claims denied based on edits may ultimately be
paid.
                                                                                                      Page 3 of3




Page 3 - Daniel R. Levinson


eMS Response

The CMS generally concurs with OIG's recommendation to refine the methodology for
estimating cost avoidance. CMS will evaluate applying a corrective factor that would
systematically account for legitimate services and claims overturned on appeal.

OIG Recommendation 4

Revise the methodology used to calculate costs avoided from edits and payment suspensions to
include verifying that the information in the Department's records is consistent with that
maintained by the Zone Program Integrity Contractors (ZPICs) and Program Safeguard
Contractors (PSCs).

CMS Response

The CMS concurs with OIG's recommendation. CMS recognizes that there are some
inconsistencies between the information submitted through the FPS by the ZPICs and PSCs and
the actual business records maintained by these contractors due to challenges in how data are
collected and reported. CMS will be making changes to ensure consistency and accuracy of
information reported by the contractors. As part ofthat effort, CMS is developing options for
new data collection and reporting requirements that would minimize or eliminate deficiencies
currently observed in the manual reporting.

OIG Recommendation 5

Include all costs associated with the FPS, including reporting costs, indirect costs, and projected
costs, in its return on investment calculation.

CMS Response

Tbe eMS concurs with OlG's recommendation and will consider taking into account such costs
in its return on investment calculation in future years.
